                 TIRNO-00-D-00020 and TIRNO-95-D-00066
                  Cumulative Allowable Cost Worksheet,
                     Fiscal Year Ended June 30, 2002

                                   October 2004

                      Reference Number: 2005-1C-002




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            October 15, 2004]


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                   Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:                TIRNO-00-D-00020 and TIRNO-95-D-00066 Cumulative
                               Allowable Cost Worksheet, Fiscal Year Ended June 30, 2002
                               (Audit #20051C0201)


       The Defense Contract Audit Agency (DCAA) prepared a Cumulative Allowable Cost
       Worksheet as part of their examination of the contractor’s certified final indirect cost rate
       proposal and related books and records for reimbursement of Fiscal Year 2002 incurred
       costs. The purpose of the Cumulative Allowable Cost Worksheet is to present the
       allowable costs and fee for those contracting actions that are identified as physically
       completed and should be closed, as well as to maintain a record of audited cumulative
       allowable costs by fiscal year and subcontract.
       In summary, the DCAA stated that the contractor’s accounting and billing systems are
       generally adequate to ensure final vouchers are based on allowable cost and fee data.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
